No. 20-575
In The
Supreme Court of the United States
ROYAL TRUCK & TRAILER SALES AND
SERVICES, INC.,
Petitioner,
v.
MIKE KRAFT AND KELLY MATHEWS A/K/A
KELLY SCHLIMMER
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
MIKE KRAFT AND KELLY MATHEWS A/K/A
KELLY SCHLIMMER’S BRIEF IN OPPOSITION
Richard T. Hewlett (Counsel of Record)
Salvatore J. Vitale
Jordan Giles
39500 High Pointe Blvd, Suite 350
Novi, MI 48375
(248) 567-7426
rthewlett@varnumlaw.com
sjvitale@varnumlaw.com
jcgiles@varnumlaw.com
Counsel for Respondents Mike Kraft and Kelly
Mathews A/K/A Kelly Schlimmer

CERTIFICATE OF SERVICE
I hereby certify that on this 5th day of March, 2021, I electronically filed the
foregoing with the Clerk of the Court for the United States Supreme Court. I further
certify that on this day, I sent to this Court one copy (pursuant to Guidance
Concerning Clerk’s Office Operations, Apr. 17, 2020) of the foregoing via UPS
Overnight Delivery mail. I further certify that, as required by Sup. Ct. R. 29(3), I
served one copy of the foregoing via U.S. Mail and electronic mail upon:
ANTHONY M. SCIARA
Counsel of Record for ROYAL TRUCK & TRAILER
311 East Cady Street, Suite C
Northville, MI 48167
(248) 773-3775
asciara@royaltrailersales.com
Counsel for Petitioner
VARNUM LLP
By:

/s/ Richard T. Hewlett
Counsel of Record

Richard T. Hewlett (Counsel of Record)
Salvatore Vitale
Jordan Giles
Attorneys for Respondents
39500 High Point Blvd. Suite 350
Novi, MI 48375
(248) 567-7400
rthewlett@varnumlaw.com
sjvitale@varnumlaw.com
jcgiles@varnumlaw.com

1

